2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

L eg al B rie fs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-574

SHEILA J. POOLE, COMMISSIONER OF THE NEW
YORK STATE OFFICE OF CHILDREN AND FAMILY
SERVICES, IN HER OFFICIAL CAPACITY, PETITIONER
v.

NEW YORK STATE CITIZENS’
COALITION FOR CHILDREN.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 6952 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ‘
General Notary . GLE
State of Nebraska : EC LM Qudraw- he

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38999
